  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA Has Not Fully Implemented a
National Emergency Response
Equipment Tracking System
Report No. 11-P-0616

September 13, 2011
Report Contributors:                               Richard Eyermann
                                                   Mike Davis
                                                   Jennifer Hutkoff
                                                   Heather Layne
                                                   Gul Sharma




Abbreviations

CPIC          Capital Planning and Investment Control
EMP           Emergency Management Portal
EPA           U.S. Environmental Protection Agency
ERT           Environmental Response Team
NDT           National Decontamination Team
NEMS          National Equipment Management System
OEM           Office of Emergency Management
OIG           Office of Inspector General
OMB           Office of Management and Budget
OSWER         Office of Solid Waste and Emergency Response
SLCM          System Life Cycle Management




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                              11-P-0616
                        U.S. Environmental Protection Agency                                          September 13, 2011
                        Office of Inspector General


                        At a Glance
                                                                              Catalyst for Improving the Environment

Why We Did This Review             EPA Has Not Fully Implemented a National
We initiated this audit based      Emergency Response Equipment Tracking System
on a Hotline complaint related
to the Emergency Management        What We Found
Portal (EMP) equipment
tracking module. Our               Although EPA spent $2.8 million as of October 2010 to develop and implement an
objectives were to determine       EMP emergency equipment tracking module, EPA has not fully implemented the
the extent to which the U.S.       module, and the module suffers from operational issues. Our review of allegations
Environmental Protection           in a Hotline complaint found that:
Agency (EPA) implemented
the EMP equipment tracking                EPA does not fully use the EMP equipment tracking module because no
software, what efforts EPA has             EPA office with overall authority has mandated its use.
made to assess functionality              EPA has made no formal effort to assess functionality and cost
and cost effectiveness, and                effectiveness due to its decision to perform such assessments only after
how the EMP equipment                      fully implementing the EMP equipment module.
module compared to the                    The EMP equipment module is cumbersome and slow, and may not be the
previous interim system.                   most efficient and effective emergency equipment tracking alternative.

Background                         EPA has guidance and policies that require the Agency to develop and implement a
                                   plan for a national equipment tracking system. Both the Office of Management and
Since September 11, 2001,          Budget and EPA require performance measurement of such systems. However,
EPA’s emergency response           EPA has not fulfilled this requirement. In addition to the $2.8 million it has already
focus has expanded to better       spent, EPA plans to spend another $5.5 million over the next 15 years on the EMP
coincide with its new role in      equipment module’s maintenance. Further, the regions that are using the module
homeland security. In May          continue to maintain their own tracking systems, resulting in wasted resources.
2002, EPA determined that it       Because EPA has not fully implemented the EMP equipment module and the
needed to create a national        module is cumbersome and slow, EPA’s ability to protect public health and the
equipment tracking system to       environment in the event of a nationally significant incident may be impaired.
be better prepared for terrorist
acts and nationally significant
incidents.                         What We Recommend

                                   We recommend that the Assistant Administrator for Solid Waste and Emergency
                                   Response ensure that only essential equipment tracking data are required to be
                                   recorded and determine whether the EMP equipment module is the most cost-
                                   efficient alternative. We also recommend that the EPA Deputy Administrator
For further information,           mandate that regions and emergency response teams employ the national tracking
contact our Office of              system that EPA decides to use for emergency response equipment. The Agency
Congressional, Public Affairs      concurred with the findings and recommendations, but did not provide a corrective
and Management at
                                   action date for the first recommendation. The Assistant Administrator for Solid
(202) 566-2391.
                                   Waste and Emergency Response will hire an outside contractor to conduct an
The full report is at:             alternative analysis to determine the most efficient and effective national
www.epa.gov/oig/reports/2011/      emergency response equipment tracking alternative. The Deputy Administrator also
20110913-11-P-0616.pdf             plans to issue a memo requiring the use of the EMP equipment module for tracking
                                   equipment.
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460

                                                                               THE INSPECTOR GENERAL




                                       September 13, 2011

MEMORANDUM

SUBJECT:	              EPA Has Not Fully Implemented a National Emergency Response
                       Equipment Tracking System
                       Report No. 11-P-0616


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:	                   Bob Perciasepe
                       Deputy Administrator

                       Mathy Stanislaus
                       Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $197,352.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Richard
Eyermann at (202) 566-0565 or eyermann.richard@epa.gov.
EPA Has Not Fully Implemented a National                                                                                        11-P-0616
Emergency Response Equipment Tracking System



                                      Table of Contents 

   Purpose ............................................................................................................................... 1 


   Background ........................................................................................................................ 1 


           National Equipment Management System .................................................................. 1 

           Emergency Management Portal .................................................................................. 2 


   Scope and Methodology.................................................................................................... 2 


           Prior OIG Audits .......................................................................................................... 3 


   Results of Review .............................................................................................................. 4 


           EPA Directives and Policy Require Implementation and Formal 

               Review of a National Emergency Equipment Tracking System........................... 4 

           EPA Has Not Performed Formal Functionality and Cost Effectiveness 

               Assessments of the EMP Equipment Module ...................................................... 5 

           Equipment Module Not Fully Used Because No EPA Office With 

               Overall Authority Has Mandated Use................................................................... 6 

           The EMP Equipment Module Is Cumbersome and Slow Compared 

               With NEMS .......................................................................................................... 8 


   Conclusion.......................................................................................................................... 9 


   Recommendations ........................................................................................................... 10 


   Agency Comments and OIG Evaluation ........................................................................ 10 


   Status of Recommendations and Potential Monetary Benefits................................... 12 




Appendices
   A       EPA Response to Draft Report .............................................................................. 13 


   B       Distribution .............................................................................................................. 17 

Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), initiated this audit based on a Hotline complaint. The Hotline complaint
            alleged that the regions and environmental response and radiological emergency
            response teams were not using the Emergency Management Portal (EMP)
            equipment module, and that the module was ineffective and costly. The Hotline
            complaint also alleged that a significantly cheaper, previously developed interim
            system, the National Equipment Management System (NEMS), was able to
            accomplish the same overall objective of nationally tracking emergency response
            equipment. Finally, the Hotline complaint alleged that, as of February 2010,
            contractor costs in excess of $8 million had been expended for the replacement
            EMP system, but that EPA had not fully implemented it.

            Based on the allegations, our objectives were to answer the following questions:

               	 To what extent has EPA implemented the EMP software for tracking
                   emergency response equipment?

               	 What efforts has EPA made to assess the functionality and cost
                   effectiveness of its EMP system for emergency response equipment?

               	 How does the cost, efficiency, and effectiveness of the EMP
                   equipment tracking capability compare to NEMS?

Background
            Since September 11, 2001, EPA’s counterterrorism and emergency response
            responsibilities expanded to better coincide with its new role in homeland
            security. EPA determined, in part due to these activities, that to be better prepared
            for terrorist acts and nationally significant incidents, it needed to purchase more
            emergency response equipment, establish maintenance contracts, and create a
            national equipment tracking system.

            Implementation of a national equipment tracking system has been a long-standing
            gap in EPA’s emergency support capabilities. The Office of Solid Waste and
            Emergency Response’s (OSWER’s) May 2002 60-Day Task Force Report on the
            EPA’s Emergency Response Contracting Network initially identified the need to
            track emergency response equipment on a national level.

            National Equipment Management System

            EPA’s Edison, New Jersey, Environmental Response Team (ERT) developed
            NEMS in 2005 at a cost of $300,000. NEMS was an interim system that provided
            a national listing of emergency response equipment. Regions and response teams
            maintained their own equipment management systems, but uploaded equipment
            data through a Web-based service to NEMS. NEMS allowed regions and response

11-P-0616                                                                                       1
            teams to identify the availability and location of emergency response equipment
            stored throughout the nation. EPA never fully implemented NEMS, and it is not
            currently in use.

            Emergency Management Portal

            EPA’s Office of Emergency Management (OEM), part of OSWER, designed the
            EMP to tie together prevention, preparedness, and response information that
            EPA’s emergency management community needs to plan for and act on in
            emergency situations. OEM began developing the EMP equipment module in
            2004 and released it for use in 2007. The EMP equipment module is a
            comprehensive equipment system that provides warehouse management functions
            that include equipment identification, location, and availability, along with
            additional maintenance, repair, and expense records. The EMP also includes
            removal and emergency response data on site cleanup, personnel readiness
            (training and experience), and technical information in support of field personnel.

            OEM developed the EMP equipment module to manage emergency response
            equipment throughout the Agency. The primary objective of the module is to
            provide information on the availability and location of emergency response
            equipment. The module also includes information to assist warehouse managers
            in managing and recording calibrations, maintenance, and repairs of their
            equipment.

Scope and Methodology
            We conducted this audit from September 2010 to June 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.

            We visited OEM at headquarters to obtain an understanding of how it uses the
            EMP to manage emergency response equipment, conducted interviews with the
            EMP project manager, and participated in a walk-through demonstration of the
            EMP equipment module.

            We determined the extent to which EPA has implemented the EMP equipment
            module through an analysis of documents and interviews with headquarters,
            regional, and response team personnel. To determine the extent to which EPA has
            implemented the module nationwide, we reviewed OEM’s September 2010
            assessment of regional and response team use of the equipment module, and an
            OEM PowerPoint presentation provided to us in October 2010.

            We reviewed the following documents to understand the requirements for
            assessing the EMP equipment module’s functionality and cost effectiveness:

11-P-0616                                                                                       2
                  EPA System Life Cycle Management (SLCM) policy and procedure
                   documents
                  EPA’s Exhibit 300 Guide for Capital Planning and Investment Control
                   (CPIC) Budget Year 2012
                  Office of Management and Budget (OMB) Circular A-130
                  EPA’s CPIC for Management of Information Technology Investments

            To compare the cost, efficiency, and effectiveness of the EMP equipment module
            to that of the previous tracking system, NEMS, we interviewed personnel in
            Regions 2, 4, 5, and 6; ERTs in New Jersey and Las Vegas; the Radiological
            Emergency Response Team in Las Vegas; and the National Decontamination
            Team (NDT). Regions 4, 5, and 6 had recent major responses to nationally
            significant incidents in April and July 2010 for which we could evaluate the EMP
            equipment module. Region 2 had no equipment tracking software system prior to
            EMP and therefore served as a pure baseline region. We also reviewed the NEMS
            Systems Management Plan, the EMP Alternatives Analysis, and Exhibit 300:
            Capital Asset Plan and Business Case Summary for the EMP (part of CPIC).

            We reviewed fiscal years 2008, 2009, and 2010 Federal Managers Financial
            Integrity Act Annual Assurance Letters for OSWER and for the Office of
            Environmental Information to determine whether they identified any weaknesses
            related to the EMP equipment module. The letters did not identify any such
            weaknesses. We reviewed internal controls related to the processes for planning
            and implementing information technology and management systems. We also
            reviewed controls for measuring, reporting, and monitoring system performance.

            Our scope was limited to evaluating EPA activities related to the equipment
            module portion of the EMP. We did not evaluate activities related to development
            and implementation of the EMP as a whole.

            Prior OIG Audits

            OIG reports in 2004, 2006, and 2009 cited EPA’s lack of a nationwide tracking
            system for emergency response equipment:

                  Report No. 2004-P-00011, EPA Needs to Better Manage Counter
                   Terrorism/Emergency Response Equipment, issued March 29, 2004
                  Report No. 2006-P-00022, EPA Needs to Better Implement Plan for
                   Protecting Critical Infrastructure and Key Resources Used to Respond to
                   Terrorist Attacks and Disasters, issued April 26, 2006
                  Report No. 09-P-0087, EPA Plans for Managing Counter
                   Terrorism/Emergency Response Equipment and Protecting Critical Assets
                   Not Fully Implemented, issued January 27, 2009

            The 2004 report recommended that the Agency establish an aggressive timetable
            to (1) determine what emergency response equipment and characteristics

11-P-0616                                                                                     3
            (e.g., location and condition) EPA was to track, and (2) develop and implement a
            plan, with points of accountability, for a national tracking system. The Agency’s
            response to this report set up the initial September 2004 deadline for establishing
            a national emergency response equipment tacking system. The 2006 and 2009
            OIG reports disclosed that EPA had not implemented a national system for
            tracking emergency response equipment and recommended that EPA implement
            such a system.

Results of Review
            As of October 2010, EPA had spent $2.8 million on the EMP emergency
            equipment tracking module, which has not been fully implemented. The system
            suffers from operational issues. In our review of allegations in the Hotline
            complaint, we found that:

               	 EPA does not fully use the EMP equipment tracking module because no
                  EPA office with overall authority has mandated its use.

               	 EPA has made no formal effort to assess functionality and cost
                  effectiveness due to its decision to perform such an assessment only after
                  fully implementing the EMP equipment module.

               	 The EMP equipment module is cumbersome and slow and may not be the
                  most efficient and effective emergency equipment tracking alternative.

            EPA has guidance and policies that require the Agency to develop and implement
            a plan for a national tracking system, and both OMB and EPA require
            performance measurement of such systems. However, EPA has not fulfilled these
            requirements. EPA has spent $2.8 million as of October 2010 on the EMP
            equipment module, and it plans to spend another $5.5 million over the next
            15 years on maintenance. In addition, regions and response teams that are also
            using the module continue to maintain their own tracking systems, resulting in
            wasted resources. Because EPA has not fully implemented the EMP equipment
            module and the module is cumbersome and slow, EPA’s ability to protect public
            health and the environment in the event of a nationally significant incident may be
            impaired.

            EPA Directives and Policy Require Implementation and Formal
            Review of a National Emergency Equipment Tracking System

            In implementing computer software systems like EMP, EPA offices must follow
            the SLCM policy and procedure. EPA’s SLCM policy promotes effective and
            efficient solutions for designing and operating information systems. The policy
            mandates a series of reviews and approvals, and integration with the Agency’s
            information technology security, enterprise architecture, and investment
            management processes for information technology, while allowing flexibility to
            accommodate varying developmental approaches. The SLCM policy states that

11-P-0616                                                                                         4
            advancement from one phase to the next entails an Information Technology
            Investment Management Board review. EPA designates these reviews as Agency-
            level control gates and management must ensure that they take place. When a
            control gate review is required, management should not advance a system without
            documented, written approval resulting from that review.

            EPA’s SLCM procedure mandates the measurement of asset performance and the
            alignment of costs to projected resources required within cost-benefit analyses.
            EPA’s Exhibit 300 Guide for CPIC FY 2012 quotes OMB’s Capital Asset Plan
            and Business Case Summary Exhibit 300 when it states that agencies should be
            measuring the performance of assets against the baseline. EPA’s SLCM
            procedure states that EPA should conduct a postimplementation review to ensure
            that the system functions as planned and to verify that the system cost is within
            the estimated amount determined by the cost-benefit analysis.

            The SLCM procedure directs EPA personnel to use technical management
            practices in the planning, acquisition, operation, maintenance, and termination of
            information technology systems. The SLCM procedure outlines various
            documents and planning activities that EPA must conduct during different phases
            of projects. Two key documents and activities are:

               	 The Business Case—The OMB CPIC submission requires that current
                   business processes be described using activity and data models. Current
                   costs and performance are also associated with the models. The
                   submission must also (1) identify and analyze gaps between current and
                   desired outcomes, and (2) develop and evaluate alternatives for improving
                   the business based on readily available information.

               	 Requirements Subphase—This phase emphasizes determining what
                   functions must be performed rather than how to perform those functions.
                   To do this, the project team defines functional and system requirements
                   that are not easily expressed in data and process models. Functional and
                   system requirements also include the requirements of the business process,
                   the user requirements, and operational requirements.

            EPA Has Not Performed Formal Functionality and Cost Effectiveness
            Assessments of the EMP Equipment Module

            While EPA advised in an October 2008 OSWER memorandum that the
            equipment module was in production and that the regions and special teams were
            required to use the equipment module, it has not formally assessed operational
            functionality or cost effectiveness. The Agency has committed to addressing
            functionality issues within the EMP equipment module as they arise rather than
            assessing usability and benefits against the baseline established to measure
            performance of the equipment module. EPA plans to assess usability and benefits
            against the baseline only when all regions and response teams are using the EMP
            equipment module to track emergency response equipment. Thus, EPA has spent

11-P-0616                                                                                    5
            $2.8 million as of October 2010 on the equipment module without formally
            verifying that the system cost is within the estimated amount determined by the
            cost-benefit analysis, and without measuring the impact on the success, increased
            functionality, and use of the module.

            Equipment Module Not Fully Used Because No EPA Office With
            Overall Authority Has Mandated Use

            Despite an initial deadline of September 2004 for implementing a nationwide
            tracking system, some regions and response teams are not using the EMP
            equipment module because no EPA office with overall authority has mandated
            that offices with an emergency response equipment managing role use it. EPA has
            deployed the national system, but the Agency is not fully using the EMP
            equipment module nationwide.

            In October 2008, the Director of OEM issued a memorandum on the EMP
            equipment portal, stating that the equipment module was in production and ready
            for use for all EPA equipment warehouses. OEM sent the memorandum to
            Regional Removal Managers; the Directors of the Office of Radiation and Indoor
            Air and the Office of Superfund Remediation and Technology Innovation; and the
            Deputy Director, Office of Criminal Enforcement, Forensics and Training. The
            memorandum also stated, “All regions and special teams are required to use the
            new system for tracking equipment that is used in support of emergency
            response.”

            According to OEM, as of October 2010, 5 of the 10 regions and 3 of the
            4 response teams were not fully using EPA’s EMP equipment module to track and
            maintain emergency response equipment (table 1). OEM determined whether
            regions and response teams were using the equipment module by office
            participation in Web conferences and training, calls for support, assistance on
            using the system, and special reports requested. OEM considered an office to be
            “fully implemented” and using the system if it was using the system to determine
            availability of equipment.




11-P-0616                                                                                   6
              Table 1: EMP equipment module implementation status by
              region and response team

                   Region and response team         Implementation status
               Region 3
               Region 5
               Region 6
                                                       Fully implemented
               Region 7
               Region 9
               ERT Las Vegas
               Region 1
               Region 8
               Region 10                              Nearly implemented
               ERT Kentucky
               Radiological ERT Las Vegas
               Region 2
               Region 4                                 Not implemented
               ERT New Jersey
               Source: October 2010 OEM PowerPoint presentation.

            While OEM has required the use of the EMP equipment module, OEM does not
            have the direct authority to require that regions and response teams use the EMP
            equipment module. Regions are under the authority of Regional Administrators,
            and response teams are under the authority of the Office of Superfund
            Remediation and Technology Innovation.

            OEM has not elevated the issue of regions and response teams not using the
            system. Instead, OEM has delegated the implementation of the equipment module
            to its NDT. NDT’s role is to:

                    Train the regional warehouse managers
                    Support warehouse managers in fully utilizing the equipment module
                    Assist the warehouse managers in developing equipment-related reports
                    Assist headquarters in developing and prioritizing new features and fixes
                     for a future version of the equipment module
            As a subordinate group to OEM, NDT also cannot require compliance by
            the regions and response teams. NDT staff responsible for the
            implementation of the equipment module stated that regions and response
            teams are resistant to change, and regions and response teams found their
            own tracking systems to be more efficient and easier to use.




11-P-0616                                                                                        7
            Regions and response teams had various reasons for not using the EMP
            equipment module:

                  They are comfortable working with the warehouse systems they currently
                   have.
                  The EMP equipment module is not easy to use, and it is slow due to
                   additional required fields that users must complete.
                  The EMP equipment module is missing functions, such as the capability to
                   load large amounts of data simultaneously.

            The EMP Equipment Module Is Cumbersome and Slow Compared
            With NEMS

            EMP equipment module user feedback casts doubt on it being the most efficient
            and effective emergency equipment tracking alternative. The EMP equipment
            module replaced the interim system, NEMS, because OEM determined that the
            Agency needed a more robust national equipment management system based out
            of headquarters. However, NEMS met the emergency equipment tracking needs
            of the regions according to the New Jersey ERT and Regions 4 and 6.

            NEMS provided a national view of equipment, including identification, location,
            and availability. NEMS collected data from regional and response team systems
            to display each region’s individual categorization of equipment and equipment
            location. EPA did not intend for NEMS to replace local systems. EPA designed
            the EMP equipment module to collect data from user input or local systems to
            track equipment and compile additional information such as cost and schedule of
            equipment purchases and maintenance actions.

            Some regional and response team personnel have deemed the EMP equipment
            module to be “cumbersome” and slow because of the number of extra fields that
            users are required to fill out to support the module’s increased functionality.
            Regional and response team personnel stated that some EMP equipment module
            functionality is beyond what a national tracking system needs, and that the
            functionality is not an improvement on previous regional warehouse management
            systems. The number of extra fields that users are required to fill out to support
            the module’s increased functionality adversely affects the EMP equipment
            module’s efficiency. Specific comments include the following:

               	 Region 4 staff stated that they do not use the EMP equipment module
                  because it is very slow. They tested the system by checking out (assigning
                  equipment to a first responder in the system) a piece of equipment both in
                  the EMP equipment module and in their regional system. To check out the
                  same piece of equipment, the EMP equipment module took 48 minutes,
                  and Region 4’s system took 11 minutes.

               	 Region 4 staff also stated that they need basic equipment tracking
                  information, which is the location and the availability of equipment on a

11-P-0616                                                                                     8
                   nationwide basis, but nationally they do not need to know information on
                   other regions’ maintenance of equipment and information on parts and
                   supplies. This information is not important in an emergency.

               	 Region 5 staff stated that the EMP required that they enter more data into
                  the system (into the fields), so it takes more time and effort to complete
                  functions (e.g., entering costs).

               	 Region 6 staff said that the EMP equipment module was more
                  cumbersome than the region’s previous system. Using the EMP required
                  20–30 percent more effort (due to the extensive number of fields in EMP
                  that must be filled out), but had mostly the same functionality as the
                  region’s Response Manager System. OEM created the check-in/check-out
                  part of the module with many extraneous features and steps.

               	 NDT staff provided us with information compiled by Region 7. Region 7
                  performed a comparison of the EMP equipment module to its own system
                  and determined that it took 5 minutes and 9 seconds to perform multiple
                  tasks including: check back in, inventory event, and in-house repair tasks
                  in its own system, compared to 16 minutes and 2 seconds in the EMP
                  equipment module.

               	 In a New Jersey ERT contractor comparison of speed in getting equipment
                  through the EMP equipment module versus the legacy system, the total
                  check-out and check-in time with the legacy system was 13 minutes,
                  compared to 54 minutes with the EMP equipment module.

               	 ERT-Las Vegas staff stated that if they used the EMP, they would
                  duplicate some of their efforts. For example, their maintenance records are
                  already located in their own maintenance log books.

Conclusion
            EPA has implemented neither the EMP equipment module nor NEMS as EPA’s
            national equipment tracking system. The development costs of the EMP
            equipment module were significantly higher than the costs of NEMS. The cost of
            developing the EMP equipment module accounted for $2.2 million of the
            $2.8 million spent on the module through October 2010. Estimated development
            costs for NEMS were $300,000. Therefore, EPA has spent millions of dollars on a
            system that the regions and response teams are not fully using as intended, and
            plans to spend $5.5 million more on maintenance over the next 15 years.




11-P-0616                                                                                      9
Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1.	 Ensure that only data essential to tracking emergency response equipment
                   are required in the EPA national emergency response tracking system.

               2.	 Determine whether the EMP equipment module is the most cost-efficient
                   and functional national equipment tracking alternative.

            We recommend that the EPA Deputy Administrator:

               3.	 Mandate that regions and response teams employ the national tracking
                   system EPA decides to use for emergency response equipment.

Agency Comments and OIG Evaluation
            EPA concurred with the findings and recommendations. Originally, the first
            recommendation directed that only data essential to tracking emergency
            equipment be included in the EPA national emergency response tracking system.
            In its response, EPA explained that the equipment module is already only tracking
            essential equipment, but went on to say that the equipment module contained data
            elements beyond the essential needs to help regions and special teams manage
            their equipment. The OIG agreed to change the first recommendation from
            ensuring only essential tracking emergency response equipment data be
            “included” in the system to ensuring that only essential tracking emergency
            response equipment data are “required” in the system, and the Agency concurred
            with the revised recommendation. OSWER stated that the users need more
            training to better familiarize them with the system. OEM plans to send a memo in
            September 2011 promoting all available training opportunities. While training
            may assist users of the equipment module in understanding data applications
            beyond their essential needs, it does not meet the intent of the recommendation to
            require only essential equipment tracking data. To be responsive to this revised
            recommendation, OSWER must assure that the system requires the data to track
            equipment for emergency response and does not require data for other purposes,
            such as equipment management. OSWER’s 90-day response should provide a
            completion plan and date for complying with the first recommendation. OSWER
            is also planning to optimize the data entry screens to improve the responsiveness
            of the equipment module and to allow users to enter essential tracking data
            quickly and efficiently. However, OSWER did not provide a completion date for
            optimizing the data entry screens and should include one in its 90-day response to
            the final report.

            The Agency agreed with recommendation 2 and stated that it would hire an
            outside contractor to conduct an alternative analysis and determine the most
            efficient and effective national emergency response equipment tracking

11-P-0616                                                                                  10
            alternative by spring 2012. We agree with this corrective action plan for
            recommendation 2.

            The Agency agreed with recommendation 3 and stated that it would prepare a
            memo for the Deputy Administrator’s signature by fall 2011 requiring the regions
            and special teams to use the equipment module. The Deputy Administrator needs
            to establish plans, with dates, for when the Agency will send an updated memo
            following the alternative analysis scheduled for 2012, to be completed in response
            to recommendation 2.

            We agree with the Agency corrective action plan for recommendation 2 and
            request that additional information on action plans and completion dates for
            recommendations 1 and 3 be added to its corrective action plans when responding
            to the final report. The Agency’s full response is in appendix A.




11-P-0616                                                                                  11
                              Status of Recommendations and
                                Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                               Planned
         Page                                                                                                 Completion   Claimed    Agreed-To
Rec. No. No.                          Subject                        Status1         Action Official             Date      Amount      Amount

    1       10         Ensure that only data essential to tracking     U        Assistant Administrator for
                       emergency response equipment are required               Solid Waste and Emergency
                       in the EPA national emergency response                           Response
                       tracking system.

    2       10         Determine whether the EMP equipment             O        Assistant Administrator for    06/20/12
                       module is the most cost-efficient and                   Solid Waste and Emergency
                       functional national equipment tracking                           Response
                       alternative.

    3       10         Mandate that regions and response teams         O          Deputy Administrator         12/22/11
                       employ the national tracking system EPA
                       decides to use for emergency response
                       equipment.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




11-P-0616                                                                                                                                    12
                                                                                   Appendix A

                     EPA Response to Draft Report



                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460

                                         July 27, 2011

MEMORANDUM

SUBJECT:	 Comments on Draft Report: EPA Has Not Fully implemented a National
          Emergency Response Equipment Tracking System. Project No. OA-FY10-0210

FROM: 	       Mathy Stanislaus, Assistant Administrator /Signed/
              Office of Solid Waste and Emergency Response

THRU: 	       Bob Perciasepe
              Deputy Administrator

TO:	          Melissa M. Heist
              Assistant Inspector General for Audit

Thank you for the opportunity to review and comment on the Draft OIG Evaluation Report
“EPA Has Not Fully Implemented a National Emergency Response Equipment Tracking
System” Project No. OA-FY10-0210. We have completed our review of the report and proposed
recommendations. We have outlined in the attachment our response to the recommendations and
our proposed actions going forward.

We agree that the Emergency Management Portal (EMP) - Equipment Module (“Equipment
Module”) has not been fully implemented. However, regions are making continual progress
toward using the Equipment Module as their day-to-day operational database. Furthermore, as
discussed in the attachment, we have several initiatives underway to ensure the success of the
Equipment Module.

Our comments on the draft OIG report are attached. Please contact Johnsie Webster at 202-566-
1912 if you have further questions or concerns.


Attachment




11-P-0616                                                                                        13
                                          ATTACHMENT

      Response to OIG Recommendations

      	 Ensure that only essential “equipment tracking data” needs are included in the
         EPA national emergency response equipment tracking system.

      Response & Actions:
      The Equipment Module is already designed to track equipment using only “essential
      tracking data.” To track equipment checked out for field use, the module requires six
      pieces of “essential tracking data”: unique barcode number, response site name, name of
      the EPA responsible party, name of the person that actually picked up the equipment
      from the warehouse (which may be the same as the EPA responsible party), the check-out
      date, and the check-out type (field use, maintenance, demonstration/training). If a
      warehouse enters this information, its equipment can be adequately located per the
      purpose of the Equipment Module.

      Additional information (maintenance, parts & supplies, etc.) can be entered and managed
      within the Equipment Module. This information can provide data on the condition and
      operability of the equipment, which is important information during a response. In
      addition, the Equipment Module allows the warehouse to track all equipment-related
      information in one application, rather than managing tracking data in one application and
      maintenance data in another, or entering some of the same data in two applications.

      In response to the comment that there are too many required fields and the database is too
      cumbersome, our National Decontamination Team (NDT) provides ongoing support and
      educational opportunities to the users of the Equipment Module through various means.
      Contractor support is available on a daily basis via email, a toll free help line and via
      direct cell phone line. User support requests are typically handled immediately over the
      phone or by conducting an impromptu web conference if a more extensive response is
      needed. In addition to the help desk requests, routine webinars are scheduled to introduce
      and review some the newer functions (e.g. bulk data uploads) that continue to be added to
      the system. A regularly scheduled quarterly Equipment Module User's Group web
      conference has also been held for the past few quarters. These web conferences are used
      to inform the users of upcoming changes and to gather their input on areas for possible
      improvements to the system. Several refresher training courses have been conducted at
      the request of the Regions. These courses provide a means to train new staff and review
      existing and new functions for all the staff. However, in order to better inform our users,
      OEM will send a memo promoting all training opportunities to the Regions and Special
      Teams by September 2011.

      In response to earlier concerns that the Equipment Module is cumbersome and slow, we
      have completed a pilot study on the use of bar code scanners. The results of this study
      showed that by using barcode scanners, the warehouse managers will be able to easily
      record the barcode numbers of equipment scheduled for check out or transfer to another
      warehouse and then have that information transferred to the Equipment Module, using
      either a direct interface, or by using a batch process with a spreadsheet or text file

11-P-0616                                                                                     14
      containing the data. The scanners can be used for recording maintenance activities,
      annual warehouse inventories and other routine equipment inventory reports, although
      this use is not required. Most importantly during a large scale response when various
      equipment is borrowed or rented, the barcode scanners can be utilized as a standalone
      unit, with the Equipment Module updated on a periodic basis.

      We are currently working on improving the responsiveness by optimizing the data entry
      screens so that users can enter the essential tracking data quickly and efficiently.

      We believe the steps we are taking to improve the application will alleviate the problems
      we have had in the past and allow all of the warehouses to use the application more
      efficiently and therefore no corrective action date is needed.

      	 Determine whether the EMP equipment module is the most cost-efficient and
         functional national emergency response equipment tracking alternative.

      Response and Actions:
      We plan to conduct a thorough alternatives analysis by Spring 2012, utilizing an outside
      firm that specializes in this analysis. This analysis will consider several products,
      including commercial and government off-the-shelf software. Once complete, we will
      share the results with the OIG for review. While we are conducting this analysis, we will
      still move forward with the bar code scanning functionality. If the alternatives analysis
      shows that we should move to another solution, the bar code scanners can be integrated
      into that tool.

      In response to the comment “The EMP Equipment Module is Cumbersome and Slow
      Compared to NEMS,” the EMP Equipment application cannot be easily compared with
      the NEMS system. The Equipment Module is a web-based application that was
      developed to ensure nationally consistent terminology and tracking. The NEMS system
      was an interim solution that connected to regional databases through web services. The
      NEMS system did not promote nationally consistent equipment terminology and was not
      meant to be an operational, day-to-day equipment management system. If the NEMS
      system were implemented as a national tool, each region would need to maintain its own
      database and ensure that it could successfully share data with NEMS utilizing the correct,
      consistent terminology.

      Recently the National Decontamination Team (NDT) conducted a review of internet
      speeds at each of the EPA warehouses. Many of the issues that the regions have
      experienced with the EMP Equipment application is due to slow internet speeds. We are
      developing a minimum internet speed standard. Once the warehouses have bar code
      scanners and acceptable internet capability, usability should improve.

      In addition, the Equipment Module already includes a local version that can be installed
      on the warehouse local machines and that does not require constant access to the internet.
      The data within the local version can then be uploaded to the central system on a regular
      basis, usually during downtime of the warehouse. This mitigates problems with



11-P-0616                                                                                     15
      suboptimal warehouse internet connections. We recommend this solution to until the bar
      code scanners and improved internet capabilities can be implemented fully.

      For the past two years NDT has been gathering input from the regions on improvements
      to the Equipment Module and to date, over 100 improvements have been implemented,
      which have greatly improved usability.

      	 Mandate that regions and response teams employ the national tracking system
         EPA decides to use for emergency response equipment.

      Response and Actions: 

      We agree with this recommendation and OEM will prepare a memo for the Deputy 

      Administrator’s signature by Fall 2011 requiring the Regions and Special Teams to use 

      the Equipment Module. 


      For the purpose of background, the majority of regions and special teams use the EMP
      Equipment application, many regions have existing contracts in place that do not require
      the use of the EMP Equipment application. As these contracts turnover, more warehouses
      will be required to use the application as part of their contract renewals or contract
      competitions. Additionally, OEM conducts annual evaluations with each region called
      Core National Approach to Response (Core NAR). Core NAR sets standards to ensure
      that each region works toward improving and maintaining an excellent response program.
      For the past two years, the Core NAR evaluation has included a criterion which we use to
      determine whether or not the regions and special teams are complying with the 2008
      memo and using the Equipment Module. OEM will continue to include this criterion in
      the Core NAR to further evaluate the increased usage of the Equipment Module by EPA
      regions and special teams.




11-P-0616                                                                                   16
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Solid Waste and Emergency Response




11-P-0616                                                                           17
